(?
'l'~4'''VICØ


.."',¡Jr,llrv~Ja
                       DEPARTMENT
                       DEPARTMENTOF
                                  OFHEALTH
                                    HEALTH&.
                                           &. HUMAN
                                              HUMANSERVICES
                                                    SERVICES                                                                   Office
                                                                                                                               Office of
                                                                                                                                      of Inspector
                                                                                                                                          InspectorGeneral


                                                                                                                               Washington, D.C.
                                                                                                                               Washington,
                                                                                                                                                   General


                                                                                                                                            D.C. 20201

                                                                                                                                                  20201




                                                                          NOV 110
                                                                          NOV      2008
                                                                                0 2008



                   TO:
                   TO: Kerry  Weems

                           Kerry Weems
                                          Acting Administrator
                                          Acting Administrator



                   FROM:
                   FROM: osephE. Vengrn
                                  ~;:;~ty
                                                ý~    Medicare &
                                          Centers for Medicare


                                     l:epkve~
                                                                 Medicaid Services
                                                               & Medicaid




                                                 Inspector General
                                          Deputy Inspector General for
                                                                          Services



                                                                   for Audit
                                                                       Audit Services
                                                                             Services


                   SUBJECT:
                   SUBJECT: Review of 
   Review of Medicaid Outpatient Drug Expenditures inTennessee
                                                                             Expenditues in Tennessee for
                                                                                                       for the
                                                                                                           the Period
                                                                                                               Period
                                          October 1,2003, Through September
                                                  1,2003, Through September 30, 2005
                                                                             30,2005 (A-04-07-00027)


                   Attached is an    an advance    copyof
                                         advancecopy    ofour
                                                           ourfinal
                                                               finalreport
                                                                     reporton
                                                                            onMedicaid
                                                                                Medicaidoutpatient
                                                                                         outpatientdrug
                                                                                                    drg expenditures
                                                                                                        expenditues in
                   Tennessee for    for the
                                        the period
                                            period October   1,2003, through
                                                    October 1,2003,   through September
                                                                               September30,2005.
                                                                                           30,2005. We will  issue this
                                                                                                        wil issue   this report
                                                                                                                         report
                   to  the   Bureau
                   to the Bureau of    ofTennCare
                                          TennCare   (State agency)  within 55 business days.

                   In addition to providing mandatory Medicaid services, States may                                may offer
                                                                                                                          offer certain optional
                                                                                                                                         optional services,
                                                                                                                                                    services,
                   such as outpatient prescription drugs,            drugs, to  to eligible Medicaid
                                                                                                  Medicaid beneficiaries.                States, including
                                                                                                                beneficiaries. Most States,
                   Tennessee, administer their Medicaid prescription drug programs in accordance with the
                   Medicaid        drug
                   Medicaid drg rebate     rebate
                                       program.       program.
                                                The program            The
                                                            generally pays for program       generally
                                                                               covered outpatient  drgs if 
 pays for covered outpatient drugs if
                                                                                                                                                        the
                   drug    manufacturershave
                   drg manufacturers               haverebate
                                                            rebate agreements
                                                                       agreementswith     with the the Centers
                                                                                                         Centers for
                                                                                                                   forMedicare
                                                                                                                         Medicare && Medicaid      Services
                                                                                                                                       Medicaid Services

                   (CMS)
                   (CMS) and   and pay pay rebates
                                             rebates to  to the
                                                              the States.       Under the
                                                                    States. Under          the drug
                                                                                                 drug rebate
                                                                                                          rebate agreement,
                                                                                                                 agreement, CMS CMS provides
                                                                                                                                       provides the
                                                                                                                                                  the States
                                                                                                                                                       States
                   with a quarterly          Medicaiddrug
                              quarerly Medicaid               drugtape,
                                                                      tape, which
                                                                               whichlists lists aUall covered outpatient drugs and indicates a
                   drug's     terminationdate,
                   drg's termination              date,ififapplicable.
                                                              applicable. CMS     CMSguidance
                                                                                           guidance instrcts
                                                                                                           instructsthe
                                                                                                                      theStates
                                                                                                                           Statestotouse
                                                                                                                                      usethe
                                                                                                                                          thetape
                                                                                                                                              tape to
                                                                                                                                                    to verify
                                                                                                                                                       verify
                   coverage of the drugs for which they claim reimbursement.

                   Our objective
                       objective was
                                 was to
                                      to determine whether the
                                                           the State agency's claims for reimbursement of
                                                                                                       of
                   Medicaid  outpatient drug expenditures complied  with Federal requirements.
                   Medicaid outpatient drg expenditures complied with Federal requirements.



                   The    State
                   The State       agency's
                             agency's              claims for
                                       claims for reimbursement of 
 reimbursement of Medicaid outpatient drug expenditures for fiscal fiscal
                   years
                   years 20042004 and and 2005
                                             2005 did did not
                                                            not fully
                                                                   fullycomply
                                                                           comply with
                                                                                  with Federal
                                                                                        Federalrequirements.
                                                                                                 requirements. Of  the $4.5
                                                                                                                Ofthe  $4.5 billion
                                                                                                                             billon

                   ($3
                   ($3 billon Federal share) claimed, $7,970,280 (Federal share) represents expenditures for
                         billion     Federal       share)    claimed,     $7,970,280   (Federal share) represents  expenditures  for drug
                                                                                                                                     drug
                   products
                   products that were not eligible for Medicaid coverage because they were either terminated drugs                    drugs
                   for
                   for which
                         which the  the termination
                                           termination dates  dates were listed on the CMS CMS quarterly drug tape before the drugs
                                                                                                                                 drugs were
                                                                                                                                         were
                   dispensed
                   dispensed or     or less-than-effective
                                         less-than-effectivedrugs.       drgs. An  additional $13,224,612
                                                                               An additional               (Federal share)
                                                                                              $13,224,612 (Federal   share) represents
                                                                                                                             represents

                   expenditures
                   expenditures for       fordrug      products that
                                                drg products          that were
                                                                           were not listed on the quarterly drug
                                                                                                            drug tapes.
                                                                                                                  tapes. Because the State
                                                                                                                                        State
                   agency      did    not   verify     whether
                   agency did not verify whether the drgs            the drugs  missing  from the tapes were  eligible for Medicaid
                                                                                              the tapes were eligible for Medicaid
                   coverage,       some
                   coverage, some of  
       of the
                                                  the expenditures
                                                        expenditures may not have been allowable for Medicaid reimbursement.
                                                                                                                         reimbursement.
                   For   the   remainder
                   For the remainder of          of   the
                                                      the $4.5 bilion ($3 billion Federal share) claimed, we identified no
                                                            $4.5    billion ($3 billion Federal share) claimed,  we  identified  no other
                                                                                                                                    other

Page 2 – Kerry Weems


errors with respect to whether the drugs were (a) terminated, (b) less than effective, or
(c) included on the CMS quarterly drug tapes.

The State agency had insufficient controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

We recommend that the State agency:

   •   refund $7,970,280 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

   •   work with CMS to determine whether the $13,224,612 in payments for drugs that were
       not listed on the quarterly drug tapes was eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

           o   claim expenditures only for drugs that are dispensed before the termination dates
               listed on the quarterly drug tapes,

           o   claim expenditures only for drugs that are not listed as less than effective on the
               quarterly drug tape, and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

In written comments on our draft report, the State agency agreed in part with our first
recommendation and did not directly address our second and third recommendations. After
reviewing the State agency’s comments, we continue to support our findings and
recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7800
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-00027.


Attachment
                        DEPARTMENTOF
                        DEPARTMENT OFHEALTH
                                      HEALTHAND
                                             ANDHUMAN
                                                 HUMANSERVICES
                                                       SERVICESOffce of Inspector
                                                                     Office          General
                                                                            of Inspector General
                                                                                                                    Offce
                                                                                                                    OfficeofofAudit
                                                                                                                               AuditServices
                                                                                                                                     Services


(~~
\.,::~                                                                                                     61
                                                                                                            61 Forsyth
                                                                                                                         REGION
                                                                                                                         REGIONiv
                                                                                                               ForsythStreet,
                                                                                                                                IV
                                                                                                                       Street,S.W.,
                                                                                                                 Atlanta,
                                                                                                                               S.W.,Suite
                                                                                                                 Atlanta,Georgia
                                                                                                                                     Suite3T41
                                                                                                                          Georgia30303
                                                                                                                                  30303
                                                                                                                                           3T41




                                                          NOV 113
                                                          NOV      2008
                                                                3 2008



    Report Number: A-04-07-00027
    Report         A-04-07-00027

     Mr. Darn
    Mr.    DarinGordon
                  Gordon
     Deputy    Commissioner
    Deputy Commissioner
     Bureau
    Bureau of  ofTennCare
                  TennCare
     310    Great Circle Road
    310 Great Circle     Road
    Nashville, Tennessee
    Nashvile,     Tennessee 37243
                              37243

    Dear Mr.
    Dear Mr. Gordon:

             Gordon:

     Enclosed is the U.S. Department of Health
    Enclosed is the U.S. Deparment of 
                    Health  andServices
                                                              and Human Human  (RRS),Services
                                                                                      Offce of
  (HHS), Office of Inspector
     General
     General (OIG),(OIG),      final
                    final report       report
                                 entitled "Review entitled
                                                  of 
     "Review of Medicaid Outpatient Drug Expenditures
                                                                                                          Expenditues in
     Tennessee for the            Period      October
                             the Period October 1,2003,  1,2003,  Through      September        30,2005."
                                                                                September 30,2005." We    We will
                                                                                                               will forward
                                                                                                                     forward a
     copy
     copy of 
of this report to the HHS action official noted on the following            following page for review and any
     action deemed necessary.

     The HHS action official     offcial will willmake
                                                     makefinal final determination
                                                                       determinationas   as to
                                                                                             to actions
                                                                                                 actions taken
                                                                                                          taken on
                                                                                                                on all
                                                                                                                   all matters
                                                                                                                       matters reported.
                                                                                                                                reported.
     We
     We    request
        request that you that
                          respondyou   respond
                                  to this            to this
                                          official within       official
                                                          30 days            within
                                                                  from the date of 
 30 days from the date of     this letter.
                                                                                                                       letter. Your
     response should present any comments or additional information that you believe may have a
     bearing      on
     bearing on the    the
 final determination.
                    final




     Pursuant
     Pursuant to theto  the principles
                     principles of        of the     Freedom
                                               the Freedom of 
                        U.S.C. § 552, as amended by
                                                                 of Information Act, 5 U.S.C.
     Public Law 104-231, OIG reports generally are made available to the public to the extent the
     information is      is not
                             not subject
                                   subject to
                                            to exemptions
                                                exemptions in   inthe
                                                                   theAct
                                                                       Act(45
                                                                           (45CFR
                                                                               CFRpart
                                                                                    par 5). Accordingly, this report
                                                                                        5). Accordingly,
     will
     wil be be posted
                 posted on   on the
                                 the Internet
                                     Internet at at http://oig.hhs.gov.
                                                    http://oig.hhs.gov.

     If you
        you have
            have any questions or comments about this report, please do not hesitate to call me,
                                                                                              me, or
     contact Mark  L. Wimple,
     contact Mark L. Wimple,   Audit Manager, at (919)  790-2765,
                                     Manager, (919) 790-2765,        extension 24,
                                                                               24, or through
     e-mail
     e-mail at
             at Mark.Wimple@oig.hhs.gov.  Please refer
                Mark.Wimple(foig.hhs.gov. Please   refer to
                                                          to report
                                                             report number
                                                                    number A-04-07-00027 in all
     correspondence.
     correspondence.

                                                                  Sincerely,
                                                                  Sincerely,

                                                                 tP~~(J~
                                                                  Peter J.J. Barbera
                                                                  Peter      Barbera
                                                                  Regional Inspector
                                                                  Regional    Inspector General
                                                                                        General
                                                                    for Audit
                                                                   for  Audit Services
                                                                                Services


     Enclosure
     Enclosure
Page 2 – Mr. Darin Gordon


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF MEDICAID
     OUTPATIENT DRUG
     EXPENDITURES IN
 TENNESSEE FOR THE PERIOD
 OCTOBER 1, 2003, THROUGH
    SEPTEMBER 30, 2005




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-04-07-00027
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Tennessee, TennCare (the State agency)
administers its Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
Tennessee, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs and indicates a drug’s termination date, if applicable. CMS
guidance instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement.

In Tennessee, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program.” CMS reimburses the
State agency based on the Federal medical assistance percentage for the majority of claimed
Medicaid outpatient drug expenditures.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2004 and 2005 did not fully comply with Federal requirements. Of the $4.5 billion
($3 billion Federal share) claimed, $7,970,280 (Federal share) represents expenditures for drug
products that were not eligible for Medicaid coverage because they were either terminated drugs
for which the termination dates were listed on the CMS quarterly drug tape before the drugs were
dispensed or less-than-effective drugs. An additional $13,224,612 (Federal share) represents
expenditures for drug products that were not listed on the quarterly drug tapes. Because the State
agency did not verify whether the drugs missing from the tapes were eligible for Medicaid
coverage, some of the expenditures may not have been allowable for Medicaid reimbursement.
For the remainder of the $4.5 billion ($3 billion Federal share) claimed, we identified no other




                                                i
errors with respect to whether the drugs were (a) terminated, (b) less than effective, or
(c) included on the CMS quarterly drug tapes.

The State agency had insufficient controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $7,970,280 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

   •   work with CMS to determine whether the $13,224,612 in payments for drugs that were
       not listed on the quarterly drug tapes was eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

           o   claim expenditures only for drugs that are dispensed before the termination dates
               listed on the quarterly drug tapes,

           o   claim expenditures only for drugs that are not listed as less than effective on the
               quarterly drug tape, and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed in part with our first
recommendation and did not directly address our second and third recommendations. The State
agency’s comments appear in their entirety as the Appendix.

After reviewing the State agency’s comments, we continue to support our findings and
recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Medicaid Outpatient Prescription Drug Program ................................................1
              Reimbursement of Medicaid Expenditures..........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          CLAIMS FOR TERMINATED DRUGS ........................................................................4

          CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS......................................................4

          CLAIMS FOR DRUGS NOT LISTED ON
            QUARTERLY DRUG TAPES....................................................................................5

          INSUFFICIENT CONTROLS TO DETECT UNALLOWABLE
            AND POTENTIALLY UNALLOWABLE CLAIMS
            FOR DRUG EXPENDITURES...................................................................................5

          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
            UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES...................................5

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
            GENERAL RESPONSE..............................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements. In Tennessee, TennCare (the State agency) administers
the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Tennessee, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date; 2 if
applicable, specifies whether the drug is less than effective; 3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective January 1,
1991. The program is set forth in section 1927 of the Act.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.



                                                          1
Reimbursement of Medicaid Expenditures

In Tennessee, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid expenditures, including outpatient drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, Tennessee’s Federal reimbursement rate for
Medicaid expenditures varied from 64.40 to 67.54 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

Scope

The audit scope included $4.5 billion ($3.0 billion Federal share) in Medicaid outpatient drug
expenditures that the State agency claimed for FYs 2004 and 2005. We limited our testing of
these expenditures to determining compliance with specific Federal requirements and guidance
related to whether the drugs were (a) terminated, (b) less than effective, and (c) included on the
CMS quarterly drug tapes.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.
We conducted fieldwork at the State agency’s offices in Nashville, Tennessee, from February
through October 2007.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We used the quarterly drug tapes for the period October 1, 1999, through June 30, 2006. We
reconciled the amounts that the State agency reported on its CMS-64s to a detailed list of the
State agency’s outpatient drug expenditures. We also used the detailed list of drug expenditures
to determine whether the expenditures complied with Federal requirements. Specifically, we
determined whether the drugs for which the State agency claimed reimbursement were dispensed
after the termination dates listed on the quarterly drug tape. In addition, we determined whether
CMS had included the termination dates on the quarterly drug tape in a timely manner—that is,



                                                 2
before terminated drugs could be dispensed. To account for reasonable delays in processing data
for terminated drugs, we used the first day of the quarter after the State received the tape as the
termination date if the termination dates were provided to the States retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined whether the State
agency had verified whether the drugs were eligible for Medicaid coverage. If the drugs were
compound drugs, we requested supporting documentation that identified the individual drug
components. 4

We calculated the Federal share of the expenditures using the lowest percentage (64.40 to
67.54 percent) applicable for each quarter. We did not reduce the questioned drug expenditures
by the rebate amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $4.5 billion
($3 billion Federal share) claimed, $7,970,280 (Federal share) represents expenditures for drug
products not eligible for Medicaid coverage because they were either terminated drugs for which
the termination dates were listed on the CMS quarterly drug tape before the drugs were
dispensed or less-than-effective drugs. An additional $13,224,612 (Federal share) represents
expenditures for drug products not listed on the quarterly drug tapes. Because the State agency
did not verify whether the drugs missing from the tapes were eligible for Medicaid coverage,
some of the expenditures may not have been allowable for Medicaid reimbursement. For the
remainder of the $4.5 billion ($3 billion Federal share) claimed, we identified no other errors
with respect to whether the drugs were (a) terminated, (b) less than effective, or (c) included on
the CMS quarterly drug tapes.

The State agency had insufficient controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.




4
 Pharmacists create compound drugs by combining two or more prescription or nonprescription drug products and
then repackaging them into a new capsule or other dosage form.



                                                       3
CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “. . . MUST . . . ASSURE that claims submitted by pharmacists are NOT
for drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $12,381,981 ($7,925,673 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State continued to pay for the drug
Zocor, which was dispensed for 16 months after the drug’s termination date of May 31, 2004.
The quarterly drug tapes listed the termination date beginning with the quarter that ended
March 31, 2002. The claimed expenditures were unallowable because they occurred after the
drug’s termination date, which was listed on the quarterly drug tape at the time the State agency
made the expenditures.

CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS

Section 1903 (i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862 (c)
prohibits Federal funding for drug products determined to be less than effective for all conditions
prescribed, recommended, or suggested on the product’s label. According to the CMS Medicaid
drug rebate program release to State Medicaid directors, number 130, “. . . the CMS [quarterly
drug tape] is the one to use for ALL data when you are dealing with the drug rebate program.”
The quarterly drug tapes identify drugs that have been determined to be less than effective.

For FYs 2004 and 2005, the State agency claimed $68,798 ($44,607 Federal share) in
expenditures for drugs classified as less than effective on the quarterly drug tapes. For example,
the State paid for the drug Novacort, which was dispensed for 9 months after the drug’s less-
than-effective date of January 1, 2005. However, CMS reported the drug as less than effective
on the tapes beginning with the quarter that ended September 30, 2004. The claimed expenditure
was unallowable because the drug was dispensed after CMS reported it as less than effective.




                                                 4
CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 5 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy, . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides that “States must check the [quarterly drug tape] to
ensure the continued presence of a drug product . . . .”

For FYs 2004 and 2005, the State agency claimed $20,281,121 ($13,224,612 Federal share) in
expenditures for drug products not listed on the quarterly drug tapes. The State agency did not
contact CMS to ensure these drugs were eligible for Medicaid coverage under the Act. As a
result, the State agency did not have conclusive evidence that these payments were allowable
Medicaid expenditures.

INSUFFICIENT CONTROLS TO DETECT UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have sufficient controls to ensure that all Medicaid drug expenditures
complied with Federal requirements or to detect unallowable and potentially unallowable claims
for reimbursement. The State agency did not check the quarterly drug tapes to ensure that the
drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE
CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs not eligible for Medicaid
coverage because they were terminated. As a result, for FYs 2004 and 2005, the State agency
claimed unallowable expenditures totaling $12,381,981 ($7,925,673 Federal share) for these
drugs. In addition, the State agency claimed Federal reimbursement for certain drugs not eligible
for Medicaid coverage because they were less than effective. For these drugs, the State agency
claimed unallowable expenditures totaling $68,798 ($44,607 Federal share).

The State agency also claimed Federal reimbursement for drug products not listed on the
quarterly drug tapes. For these drugs, we set aside potentially unallowable expenditures totaling
$20,281,121 ($13,224,612 Federal share) for CMS adjudication because the State agency did not
determine whether the drugs were covered by Medicaid.

5
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries and if certain other conditions are met.



                                                           5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $7,970,280 to the Federal Government for drug expenditures not eligible for
       Medicaid coverage;

   •   work with CMS to determine whether the $13,224,612 in payments for drugs not listed
       on the quarterly drug tapes was eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure claimed Medicaid drug expenditures comply with
       Federal requirements, specifically:

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes,

           o claim expenditures only for drugs that are not listed as less than effective on the
             quarterly drug tape, and

           o   verify whether drugs not listed on the quarterly drug tapes are covered under the
               Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed in part with our first
recommendation and did not directly address our second and third recommendations. The State
agency concurred with our finding regarding claims for less-than effective drugs ($44,607
Federal share) but disagreed with our finding regarding claims for terminated drugs ($7,925,673
Federal share). The State agency made additional comments but did not provide evidence to
refute our finding that terminated drugs were claimed. The State agency’s comments appear in
their entirety as the Appendix.

After reviewing the State agency’s comments, we continue to support our findings and
recommendations.




                                                6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
